TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Office of Disclosure Continued to
                   Improve Compliance With the Freedom of
                        Information Act Requirements



                                         August 29, 2008

                              Reference Number: 2008-30-164




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               August 29, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Office of Disclosure Continued to Improve
                              Compliance With the Freedom of Information Act Requirements
                              (Audit # 200830025)

 This report presents the results of our review of taxpayer requests for information. The overall
 objective of this review was to determine whether the Internal Revenue Service (IRS) has
 adequate and effective policies and procedures to ensure compliance with Freedom of
 Information Act (FOIA)1 provisions. Specifically, we determined whether the IRS improperly
 withheld information requested by taxpayers in writing, based on FOIA exemption (b)(3), in
 conjunction with Internal Revenue Code (I.R.C.) Section (§) 6103,2 and/or FOIA exemption
 (b)(7), or by replying that the requested records were not available.
 The Treasury Inspector General for Tax Administration is required to conduct periodic audits to
 determine if the IRS properly denied taxpayers’ written requests for tax account information.
 We are also required to include the results in one of our Semiannual Reports to Congress. This
 is our ninth review of denials of FOIA, Privacy Act of 1974,3 and I.R.C. § 6103 requests.

 Impact on the Taxpayer
 The IRS must ensure that the provisions of the FOIA, the Privacy Act, and I.R.C. § 6103 are
 followed, particularly because errors can violate taxpayer rights and result in improper
 disclosures of tax information. We reviewed a statistically valid sample of 82 FOIA/Privacy Act
 cases and found 3 (3.7 percent) cases in which taxpayer rights might have been violated because

 1
   5 U.S.C.A. Section 552 (West Supp. 2007).
 2
   I.R.C. § 6103 (2004).
 3
   5 U.S.C. § 552a (2000).
                 The Office of Disclosure Continued to Improve Compliance With
                          the Freedom of Information Act Requirements



the IRS improperly withheld information requested by the taxpayers. When projected to the
population, our sample results indicate that 207 taxpayers might have been improperly denied
information under the FOIA and/or the Privacy Act in Fiscal Year 2007. The IRS adhered to
legal requirements under I.R.C. § 6103 in the sample of 84 cases we reviewed.

Synopsis
The IRS continued to improve the accuracy, timeliness, and completeness of its responses to
requests for information covered by the FOIA. For example, the percentage of untimely
responses to FOIA/Privacy Act requests continued to decrease, with only 1 (1.2 percent) of
82 cases reviewed having a response issued after the due date. In our previous 8 audits, the
percentages of untimely responses ranged from a high of 43.5 percent to a low of 2.3 percent. In
addition, we noted no exceptions in the 84 I.R.C. § 6103 cases reviewed. This is a marked
improvement over our results4 from last year, when information was improperly withheld in
14.5 percent of the I.R.C. § 6103 cases reviewed.
The improved performance can be attributed in large part to the policies, procedures, and
techniques (management controls) in place to help ensure that disclosure personnel handle
requests made under the FOIA in a timely manner and in accordance with laws and regulations.
While improvement was noted, management’s continued attention is needed to ensure that
disclosure personnel follow required procedures. In 3.7 percent (3 of 82 cases) of the
FOIA/Privacy Act cases we reviewed, information was improperly withheld from the requestors.
These errors occurred mainly because of inadequate research or simple oversight by disclosure
personnel.

Response
We made no recommendations in this report because, in our opinion, management controls are
operating as intended in providing reasonable assurance that FOIA/Privacy Act provisions are
followed and that accurate and timely responses are forwarded to taxpayers when written
requests for tax account information are received. IRS management reviewed this report prior to
issuance and agreed with the facts, findings, and outcome measures presented.
Copies of this report are also being sent to IRS managers affected by the report issues. Please
contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Acting Assistant
Inspector General for Audit (Small Business and Corporate Programs), at (202) 622-8510.




4
 The Office of Disclosure Can Improve Compliance With the Freedom of Information Act Requirements (Reference
Number 2007-10-133, dated August 31, 2007).
                                                                                                       2
                     The Office of Disclosure Continued to Improve Compliance With
                              the Freedom of Information Act Requirements




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Management Controls Are Providing Reasonable Assurance That
          Freedom of Information Act Requests Are Properly Handled
          in a Timely Manner.......................................................................................Page 4
          The Percentage of Improperly Denied Freedom of Information
          Act/Privacy Act Requests for Information Has Decreased...........................Page 7
          Disclosure Offices Improved the Timeliness of Responding to
          Requests for Information ..............................................................................Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Outcome Measures...............................................................Page 16
          Appendix V – Balanced Measures Review Process .....................................Page 18
         The Office of Disclosure Continued to Improve Compliance With
                  the Freedom of Information Act Requirements




                         Abbreviations

FOIA               Freedom of Information Act
FY                 Fiscal Year
I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
                   The Office of Disclosure Continued to Improve Compliance With
                            the Freedom of Information Act Requirements




                                            Background

Statutory requirements
The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration to:
        . . . conduct periodic audits of a statistically valid sample of the total
        number of determinations made by the Internal Revenue Service to deny
        written requests to disclose information to taxpayers on the basis of
        section 61032 of this title3 or section 552(b)(7) of title 5, United States
        Code.4
The three primary laws that govern the types of requests for information reviewed in this audit
are:
The Freedom of Information Act (FOIA) requires Federal         The FOIA requires agencies
Government agencies to make records available to the public       to make records of the
                                                                    Federal Government
upon request unless specifically exempted. Information that is
                                                                available to the public upon
“specifically exempted from disclosure by statute” is one of    request unless specifically
the exemptions. Internal Revenue Code (I.R.C.)                           exempted.
Section (§) 6103 is an example of such a statute; it protects
the confidentiality of tax returns and return information.
Records or information compiled for law enforcement purposes are also exempt from disclosure
under the FOIA.
The Privacy Act of 19745 prohibits Federal Government agencies from relying on any
exemption in the Privacy Act to withhold records that are otherwise available to an individual
under the FOIA.
I.R.C. § 6103, while protecting the confidentiality of taxpayers’ returns and return information,
does allow the taxpayer, or a person designated by the taxpayer, to request and receive the
taxpayer’s specific documents and information.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., and 49 U.S.C.). The requirements for this audit
are in Section (§) 1102 (d)(3)(A) of the statute.
2
  Internal Revenue Code § 6103 (2004).
3
  26 U.S.C.
4
  Freedom of Information Act, 5 U.S.C.A. § 552 (West Supp. 2007).
5
  U.S.C. § 552a (2000).
                                                                                                           Page 1
                    The Office of Disclosure Continued to Improve Compliance With
                             the Freedom of Information Act Requirements



IRS processing and reporting of FOIA cases
Within the IRS, the Small Business/Self-Employed Division Office of Communications, Liaison,
and Disclosure (through its Governmental Liaison and Disclosure Branch) is responsible for
ensuring timely compliance with the FOIA, the Privacy Act, and I.R.C. § 6103. The Office of
Disclosure within the Governmental Liaison and Disclosure Branch sets policy and issues
instructions, guidelines, and procedures to ensure compliance with the disclosure statutes.
In its FOIA Annual Report for Fiscal Year (FY) 2007, the IRS reported that a total of
18,289 FOIA/Privacy Act cases were processed. This represents a decrease of 28 percent from
the 25,404 FOIA/Privacy Act cases processed during FY 2006. The IRS attributes this decrease
to:
    •    Identification of Abusive Tax Avoidance Transactions. As the number of promoters of
         the Individual Master File Decoding Schemes are identified and disciplined,6 there is a
         decrease in the number of FOIA requests received by the IRS.7
    •    An increase in IRS employee awareness of what types of documents can be released to
         taxpayers without formal FOIA/Privacy Act requests.
    •    Taxpayers being able to receive more information from IRS web sites without having to
         make formal requests.
The IRS denied or partially denied information to requestors in 2,531 (13.8 percent) of the
18,289 FOIA/Privacy Act cases processed in FY 2007. It advised requestors that there were no
records responsive to requests in 3,393 (18.6 percent) of the 18,289 cases. The remaining
requests were either granted in full or closed for miscellaneous reasons, such as the request was
improper or had been previously granted.
Audit limitations and standards
Individual IRS Disclosure offices or other IRS offices having custody of the records processed
written requests for information made under I.R.C. § 6103. While the IRS is not required to
track all requests made under I.R.C. § 6103, it has elected to do so for requests received by its
Disclosure offices. Disclosure offices used the IRS Electronic-Disclosure Information
Management System to track requests made under the FOIA, the Privacy Act, and I.R.C. § 6103
for FY 2007. However, requests made under I.R.C. § 6103 that were received and processed by
IRS offices other than Disclosure offices are neither controlled on the Electronic-Disclosure
Information Management System nor otherwise inventoried. Consequently, the volume of these


6
 Disciplinary action can include injunction, disbarment, or a temporary or permanent suspension from practice.
7
 Promoters of Individual Master File Decoding Schemes would make requests for information that cannot be
granted or requests that are irrelevant or repetitive. In addition, single requestors generated multiple requests for
pieces of information instead of using one request for all of the information they were seeking. The Individual
Master File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                                 Page 2
                  The Office of Disclosure Continued to Improve Compliance With
                           the Freedom of Information Act Requirements



requests is not known. As a result, we could statistically sample only the I.R.C. § 6103 requests
processed directly by the IRS Disclosure offices and tracked on the Electronic-Disclosure
Information Management System.
In February 2006, responsibility for processing some requests for I.R.C. § 6103 tax compliance
checks8 and transcripts was transferred from the Small Business/Self-Employed Division
Disclosure offices to the Wage and Investment Division Return and Income Verification
Services Units. The Small Business/Self-Employed Division continues to process the FOIA and
Privacy Act requests for information. Transfer of responsibility for the processing of tax
compliance checks and transcripts to the Return and Income Verification Services Units resulted
in an increase in our scope limitation for this and future year audits because the Wage and
Investment Division does not record its I.R.C. § 6103 cases on the Electronic-Disclosure
Information Management System. We reviewed only those requests processed by the
Small Business/Self-Employed Division Disclosure offices that were denied during the period
October 1, 2006, through September 30, 2007.
During this 12-month period, IRS Disclosure offices processed approximately 12,801 requests
made under I.R.C. § 6103. We estimated that the Disclosure offices denied information or told
requestors that records were not available for approximately 29.37 percent of I.R.C. § 6103
requests (approximately 3,759 requests). The remaining requests were granted in full, or
information on the disposition was not available.
This review was performed at the Small Business/Self-Employed Division Governmental
Liaison and Disclosure Branch in New Carrolton, Maryland, during the period December 2007
through May 2008. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




8
  Tax compliance checks are conducted under the authority granted by I.R.C. § 6103(c), which permits the IRS to
release specified tax information to a third party with written authorization from the taxpayer.
                                                                                                          Page 3
                The Office of Disclosure Continued to Improve Compliance With
                         the Freedom of Information Act Requirements




                                Results of Review

The policies, procedures, and techniques (management controls) the Office of Disclosure has
implemented are providing a reasonable level of assurance that the IRS is complying with the
laws and regulations governing the FOIA. As reflected in our case reviews, the IRS continued to
improve the accuracy, timeliness, and completeness of its responses to requests for information
covered by the FOIA.
Management Controls Are Providing Reasonable Assurance That
Freedom of Information Act Requests Are Properly Handled in a
Timely Manner
The IRS relies on its disclosure personnel to ensure that requests under the FOIA are handled in
a timely manner and in accordance with laws and regulations. To assist disclosure personnel in
meeting these objectives, the Office of Disclosure has established and implemented management
controls that are in line with the Government Accountability Office Standards for Internal
Control in the Federal Government. These Standards are designed to assist managers in
establishing policies, procedures, and techniques that provide reasonable, not absolute, assurance
that specified objectives are met.
An IRS broad policy statement and the Internal Revenue Manual provide guidance to disclosure
personnel nationwide. The policy statement, among other things, affirms the IRS’ commitment
to full compliance with the FOIA and to administering it in a manner consistent with “the
fundamental values held by our society, including public accountability, safeguarding national
security, enhancing the effectiveness of law enforcement agencies and the decision-making
processes, protecting sensitive business information, and protecting personal privacy.”
The Internal Revenue Manual is an important control component at the top of the agency
because it contains the official compilation of detailed instructions and explanations of the
statutory, regulatory, and administrative procedures for disclosure personnel to follow when
handling FOIA requests. Throughout the Internal Revenue Manual, personnel are instructed to
properly document in case files all aspects of their work during the receipt, control, research,
response, and closing phases of requests. This documentation is important because it provides
the principal evidence that procedures were followed, as well as the foundation for other control
processes such as management reviews. The importance of documentation is further emphasized
in management directives; personnel training materials; and the standards for answering requests
accurately, completely, and in a timely manner.




                                                                                           Page 4
                    The Office of Disclosure Continued to Improve Compliance With
                             the Freedom of Information Act Requirements



  Management reviews are key for identifying and correcting potential problems
  with FOIA requests
  The Office of Disclosure uses a Balanced Measures Review Process9 to identify and correct
  potential problems with responses to FOIA/Privacy Act requests. The Balanced Measures
  Review Team examines a sample of FOIA/Privacy Act cases twice a year to 1) assess how well
  personnel are meeting the standards for accuracy, completeness, and timeliness; 2) communicate
  areas of concern to top management; 3) identify potential training needs; and 4) improve work
  processes. As shown in Figure 1, the percentages of cases meeting each of the standards have
  remained consistent (around 90 percent) since July 2005.
                          Figure 1: Balanced Measures Review Results
                         July         January            July         January           July          January
      Standard
                         2005           2006             2006           2007            2007            2008
      Accuracy            88%            91%             93%             89%             91%            91%

  Completeness            92%            95%             95%             95%             96%            96%

      Timeliness          87%            95%             95%             91%             97%            96%
Source: IRS Office of Disclosure Balanced Measures Review Reports.

  The primary tool the Office of Disclosure uses to help ensure that the standards under the
  Balanced Measures Review Process are met is the review of ongoing work assigned to disclosure
  personnel. Disclosure managers, who are responsible for the quality of work done locally by the
  personnel they manage, conduct these reviews. By reviewing ongoing work, managers attempt
  to identify problems and correct potential problems before they have an adverse effect on
  taxpayers.
  The IRS is carrying out its responsibilities to improve the disclosure of
  information under a Government-wide initiative
  In addition to providing assurances that FOIA requests are handled in a timely manner and in
  accordance with laws and regulations, controls are helping to ensure that the IRS carries out its
  responsibilities under the Government-wide Improving Agency Disclosure of Information
  initiative. The initiative was introduced by Executive Order 13392 on December 14, 2005, and
  directed agencies to 1) reduce backlogs of FOIA requests, 2) take advantage of web sites and
  other technologies for disseminating information, 3) improve communications with FOIA
  requestors, and 4) increase public awareness of FOIA processing.


  9
    Appendix V contains additional information about and results from the Balanced Measures Review Process,
  including various elements that elaborate and expand on the three standards.
                                                                                                          Page 5
                   The Office of Disclosure Continued to Improve Compliance With
                            the Freedom of Information Act Requirements



While data are not available on the precise impact the initiative is having on improving the
disclosure of information, statistics provided to the Department of Treasury (reproduced in
Figure 2) show that the IRS has steadily improved in key areas under the initiative. In FY 2007
and FY 2008 through July 1, 2008, the IRS exceeded its backlog reduction goals. The IRS’
initiative to reduce FOIA request response times has prevented additional requests from
becoming part of the backlog inventory.
                                          Figure 2: Reduction of Backlogged FOIA Requests


                                                    1000
                    Number of Backlogged Requests




                                                           Goal
                                                     800
                                                           949


                                                     600
                                                                               Goal
                                                                  Actual       605
                                                     400           545


                                                                                      Actual
                                                     200                               328


                                                       0
                                                            FY 2007        FY 2008 (as of 7/1/08)

                  Source: IRS Office of Disclosure.

In FY 2007, the Department of the Treasury, with significant contribution from the IRS, was
recognized by the Office of Management and Budget for its performance in decreasing the
backlog of FOIA requests by more than any other Federal Government agency since the
initiative began in 2005.
In addition, the IRS has expanded its efforts beyond the statutory obligations imposed by the
FOIA and the Privacy Act to respond to these requests and provide better customer service.
Some examples are the management-issued Disclosure Alerts10 and the Disclosure Dispatch.11
Also, management has developed minimum standards for documenting case actions and is
providing more national oversight of the FOIA program within the Office of Disclosure and the
entire IRS.

10
   Disclosure Alerts focus on a single issue, expectation, or announcement that requires the immediate attention of
disclosure employees.
11
   The Disclosure Dispatch is a digest of important technical and procedural information for disclosure employees
and managers.
                                                                                                             Page 6
                   The Office of Disclosure Continued to Improve Compliance With
                            the Freedom of Information Act Requirements



The Percentage of Improperly Denied Freedom of Information
Act/Privacy Act Requests for Information Has Decreased
The IRS continued to improve its service to persons who requested information under the
FOIA/Privacy Act based on the sample 82 of cases we reviewed.12 In addition, the IRS adhered
to legal requirements under I.R.C. § 6103 in the sample of 84 cases we reviewed.13 We noted no
exceptions in the 84 I.R.C. § 6103 cases.
We attribute the improvement from the prior year to two factors. First, there was a 33 percent
reduction in the total number of cases received by the Office of Disclosure in FY 2007 as
compared to FY 2006. This reduction, at least in part, can be attributed to a transfer of
I.R.C. § 6103 requests for tax compliance checks and transcripts from the Small Business/
Self-Employed Division Disclosure offices to the Wage and Investment Division Return and
Income Verification Services Units. Second, during FY 2007, the Office of Disclosure
reinforced Internal Revenue Manual procedures and guidelines through technical training.
Computer-based learning techniques were used to deliver consistent and timely training to
disclosure personnel.
The IRS improperly withheld information from requestors in 3 (3.7 percent) of the
82 FOIA/Privacy Act cases. As a result, we estimate that the Disclosure offices did not provide
available tax records for 207 FOIA/Privacy Act requests.14 While improvement is noted,
management’s continued attention is needed to ensure that disclosure personnel follow required
procedures. Figure 3 shows the percentages of cases for which information was improperly
withheld that we identified in this and prior year reports.




12
   We selected our sample of cases for audit review of denials of FOIA/Privacy Act requests from a total population
of 5,589 cases closed during FY 2007 that were fully denied, were partially denied, or for which no records were
found to be responsive to the requests. The total of 5,589 cases includes the 3,393 “no records responsive” closures
plus 2,196 of the 2,531 cases denied or partially denied. The full 2,531 were not used due to filters identifying only
cases denied for FOIA exemptions (b)(7) or (b)(3) in conjunction with I.R.C. § 6103 (which was our criterion).
13
   See Appendix I for additional information about our sampling methodologies.
14
   See Appendix IV for details.
                                                                                                              Page 7
                                                 The Office of Disclosure Continued to Improve Compliance With
                                                          the Freedom of Information Act Requirements



   Figure 3: Improper FOIA/Privacy Act and I.R.C. § 6103 Request Withholdings

                                         16
                                                                                                            14.6%                               14.5%

                                         14
                                                                                   12.2%
                                         12
        Percentage of Improper Denials




                                                              10.7%    10.6%

                                                                                                9.3%
                                         10      8.8%

                                                                                           7.4%                     7.1%
                                          8                          7.0%
                                                          6.3%                                                                   6.1%

                                          6
                                                                                                       4.4%                                  4.6%
                                                                                                                                                          3.7%
                                          4                                                                               3.1%
                                                                                                                                         2.3%

                                          2
                                                                                                                                                                 0.0%

                                          0
                                                  0   0         01         0   2           03          04            05          0   6           07         08
                                                20            20         20              20          20           20           20             20          20
                                              FY            FY         FY              FY          FY           FY           FY             FY          FY
                                                          Fiscal Year Treasury Inspector General for Tax Administration Issued Report
                                                                                       FOIA/Privacy Act        I.R.C. 6103


       Source: Treasury Inspector General for Tax Administration audit reports issued in FYs 2000-2008.
       Percentages were rounded to the closest tenth.

We analyzed the three FOIA/Privacy Act cases and determined that the types of information
improperly withheld have remained relatively consistent with the types of information identified
as improperly withheld during our prior reviews. The most common types of information
withheld were miscellaneous IRS forms and documents associated with tax transcript
information. Errors occurred mainly because of inadequate research or simple oversight by the
Disclosure office caseworkers. For the three FOIA cases, the Disclosure office caseworkers
either did not conduct complete research or did not follow guidelines when responding to
requestors.
Because the IRS improperly denied available records, taxpayers’ rights could have been violated,
taxpayers could have been burdened unnecessarily, and the IRS might have incurred additional
costs through the appeals process. For FOIA requests, if the IRS reports that no applicable
records exist, or denies any part of the request, the requestor may administratively appeal the IRS
decision. If the IRS denies the administrative appeal, the requestor has the right to appeal the


                                                                                                                                                                        Page 8
                The Office of Disclosure Continued to Improve Compliance With
                         the Freedom of Information Act Requirements



denial in court. Preparing and processing the appeals would place additional burden on the
requestor and additional costs on the IRS.
During FY 2007, the IRS processed 267 FOIA/Privacy Act appeals. The Office of Appeals
completely upheld the Disclosure office’s decision to deny records in 247 cases, partially
reversed 18 denials, and completely reversed 2 denials. In the three FOIA cases in which the
IRS improperly withheld records in our sample, the requestors did not appeal. Had these
three taxpayers used the appeals process, the improper determinations might have been
discovered and reversed.
Disclosure Offices Improved the Timeliness of Responding to
Requests for Information
The FOIA requires that Federal Government agencies 1) respond within 20 business days of the
receipt of a request or, 2) if the 20 days are not sufficient, notify the requestor of the reason why
the request cannot or will not be filled. Federal Government agencies are required to
immediately notify the requestor if they are unable to respond to the request within the time
limit, to advise the requestor of the reason(s) why they are unable to respond, and to advise the
requestor of his or her right to appeal. The due date for a FOIA request is revised when the IRS
sends a letter to the requestor exercising its right for an automatic 10-business-day extension
and/or requesting a voluntary extension in excess of the initial statutory 20-business-day period
for FOIA requests. The requestor must agree to the voluntary extension, and the IRS must notify
the requestor of its ability to respond by the end of the extension period. A case is untimely
when the IRS responds to the requestor after the due date. For Privacy Act cases, the IRS must
respond within 30 business days of the receipt of the request.
Since FY 2000, the IRS has made significant improvement in the timeliness of responses to
FOIA/Privacy Act requests. Figure 4 shows the percentages of untimely cases we have reported
since FY 2000.




                                                                                              Page 9
                                     The Office of Disclosure Continued to Improve Compliance With
                                              the Freedom of Information Act Requirements



            Figure 4: Comparison of Untimely FOIA/Privacy Act Responses

                                     50
            Percentage of Untimely




                                     45                                        43.5%
                                     40   33.8%
                 Responses




                                     35
                                     30
                                     25                            22.7%
                                                     20.1%
                                     20                                                    13.1%
                                     15                                                                7.3%
                                     10                                                                            2.3%
                                      5                                                                                        1.2%
                                      0

                                             00          01            02          03          05          06          07          08
                                        20          20            20          20          20          20          20          20
                                      FY          FY            FY          FY          FY          FY          FY          FY
                                                              Fiscal Year in Which Report Was Issued

              Source: Treasury Inspector General for Tax Administration audit reports issued in
              FYs 2000-2008. Percentages were rounded to the closest tenth.15

The Disclosure offices did not respond to the requestor in the time required by law for only
1 (1.2 percent) of the 82 FOIA/Privacy Act cases. In addition, the IRS reported a 97 percent
timeliness rate for all FOIA/Privacy Act closures in its July 2007 Balanced Measures Review
Report.
We estimate that, from the population of 5,589 cases closed during the period October 1, 2006,
through September 30, 2007, there were 67 FOIA/Privacy Act requests not processed in a timely
manner.16 However, the IRS is responding in a more timely manner than in prior years.




15
   We did not evaluate the timeliness of responses to FOIA and Privacy Act requests in the FY 2004 audit because
the IRS was in the process of implementing our recommendations to improve timeliness.
16
   See Appendix IV for details.
                                                                                                                                        Page 10
                  The Office of Disclosure Continued to Improve Compliance With
                           the Freedom of Information Act Requirements



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS has adequate and effective
policies and procedures to ensure compliance with FOIA1 provisions. Specifically, we
determined whether the IRS improperly withheld information requested by taxpayers in writing,
based on FOIA exemption (b)(3), in conjunction with I.R.C. Section (§) 6103,2 and/or FOIA
exemption (b)(7), or by replying that the requested records were not available. To accomplish
this objective, we:
I.      Determined whether the IRS properly adhered to statutory FOIA and Privacy Act
        of 19743 requirements and to procedural requirements.
        A. Obtained an extract from the Electronic-Disclosure Information Management System4
           for the period October 1, 2006, through September 30, 2007, and identified
           5,589 FOIA and Privacy Act cases closed as denied or partially denied based on
           FOIA exemption (b)(3) in conjunction with I.R.C. § 6103, FOIA exemption (b)(7), or
           for which the IRS replied that responsive records did not exist. We validated the data
           extract by performing specialized queries.
        B. Designed an attribute sample based on a 90 percent confidence level, an expected
           error rate of 7.5 percent, and an estimated precision of +5 percent. Based on these
           parameters, a statistically valid sample size was 75 cases. This sampling
           methodology was chosen so we could project the number of cases with improper
           withholdings to the universe of cases that were partially or fully denied based on
           FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
           exemption (b)(7), or for which requestors were told records were not available. We
           increased the attribute sample size from 75 cases to 85 cases to account for the
           possibility that some case files would be unavailable. For the 85 randomly selected
           cases requested, we received 82 case files.
        C. Reviewed the 82 sampled cases and determined whether the decision to withhold
           information was appropriate, the record search was adequate, and the determination
           was made in a timely manner.

1
  5 U.S.C.A. § 552 (West Supp. 2007).
2
  I.R.C. § 6103 (2004).
3
  5 U.S.C. § 552a (2000).
4
  The Electronic-Disclosure Information Management System is the primary automated information system used by
Government, Liaison, and Disclosure staff for inventory tracking, work planning, statistical management reports,
daily time tracking, etc.
                                                                                                       Page 11
               The Office of Disclosure Continued to Improve Compliance With
                        the Freedom of Information Act Requirements



       D. Projected the number of improper withholdings in the range of 15 to 393 (.27 percent
          to 7.04 percent) FOIA/Privacy Act cases that were partially or fully denied based on
          FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption
          (b)(7), or for which requestors were told records were not available. The projection
          was made using attribute sampling, with a 90 percent confidence level and an actual
          error rate of 3.7 percent. As a result, the actual precision factor was +3.39 percent.
       E. Projected the number of untimely determinations in the range of 2 to 179 (0 percent
          to 3.20 percent) FOIA/Privacy Act cases that were partially or fully denied based on
          FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption
          (b)(7), or for which requestors were told records were not available. The projection
          was made using attribute sampling, with a 90 percent confidence level and an actual
          error rate of 1.2 percent. As a result, the actual precision factor was +1.98 percent.
       F. Discussed all exception cases with the FOIA Senior Tax Law Specialist.
II.    Determined whether the IRS Disclosure offices adhered to legal requirements when
       denying written requests received from taxpayers under I.R.C. § 6103.
       A. From the national extract obtained for Step I. A., identified 12,801 I.R.C. §§ 6103 (c)
          and (e) requests.
       B. Designed an attribute sample based on a 90 percent confidence level, an expected
          error rate of 7.46 percent, and an estimated precision of +5 percent. Based on these
          parameters, the size of the statistically valid sample was 86 cases. This sampling
          methodology was chosen because it would allow us to project the number of cases
          with improper withholdings to the universe of closed I.R.C. §§ 6103 (c) and (e)
          requests for which information was partially or fully denied or for which the IRS
          replied that responsive records did not exist. We selected a larger sample size to
          account for the possibility that some case files would be unavailable.
       C. Selected a random sample of 300 of the 12,801 I.R.C. §§ 6103 (c) and (e) closed
          cases, requested case files for the 300 cases from the IRS, and received 286 case files.
          We determined that 84 (29.37 percent) of the 286 cases included instances in which
          information was partially or fully denied or in which the IRS replied that responsive
          records did not exist.
       D. Reviewed the 84 cases and determined whether the decision to withhold the
          information based on I.R.C. § 6103 was appropriate.
       E. Discussed all exception cases with the FOIA Senior Tax Law Specialist.
III.   Determined whether IRS management has implemented an effective quality review
       program to 1) evaluate IRS employees’ understanding of disclosure and privacy rules,


                                                                                          Page 12
              The Office of Disclosure Continued to Improve Compliance With
                       the Freedom of Information Act Requirements



      principles, and procedures and 2) assess employees’ compliance with these requirements
      when performing daily tasks.
IV.   Determined what actions IRS management has initiated to ensure accurate
      implementation and compliance with the initiative introduced by Executive Order 13392,
      Improving Agency Disclosure of Information (dated December 14, 2005).
      A. Obtained and reviewed the monthly FOIA Performance Measures Reports.
      B. Reviewed and evaluated the efforts IRS management has made since the adoption of
         the Department of the Treasury FOIA Improvement Plan.
      C. Interviewed IRS management about the initiatives they are taking to automate and
         streamline the processing of FOIA requests.
V.    Evaluated controls over the receipt, processing, and disposition of FOIA requests.
      A. Discussed procedures with management.
      B. Obtained and analyzed established policies and procedures for the receipt, processing,
         and disposition of FOIA requests.
      C. Determined whether managers performed operational reviews.




                                                                                           Page 13
               The Office of Disclosure Continued to Improve Compliance With
                        the Freedom of Information Act Requirements



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Program)
Frank Dunleavy, Director
Lisa Stoy, Audit Manager
Donna Saranchak, Senior Auditor
Debra Mason, Auditor




                                                                                      Page 14
               The Office of Disclosure Continued to Improve Compliance With
                        the Freedom of Information Act Requirements



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Governmental Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CLD:GLD
Chief, Disclosure Branch, Small Business/Self-Employed Division SE:S:CLD:GLD:D
Freedom of Information Act Senior Tax Law Specialist SE:S:CLD:GLD:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 15
                  The Office of Disclosure Continued to Improve Compliance With
                           the Freedom of Information Act Requirements



                                                                                Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that the results of our
audit will have on tax administration. These benefits will be incorporated into our Semiannual
Report to Congress.
Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 207 responses to FOIA1 or Privacy Act of 19742 requests for
    which information was improperly withheld during the 12-month period October 1, 2006,
    through September 30, 2007 (see page 7).
Methodology Used to Measure the Reported Benefit:
The attribute sample of 82 cases was randomly selected from the universe of
5,589 FOIA/Privacy Act requests closed nationally during the period October 1, 2006, through
September 20, 2007, as 1) a full or partial denial with either FOIA exemption (b)(3), in
conjunction with I.R.C. Section (§) 6103,3 and/or FOIA exemption (b)(7) cited as one of the
reasons for withholding information, or 2) a request for which the IRS replied that responsive
records did not exist.
We found 3 (3.7 percent) cases in which the IRS improperly withheld information requested by
the taxpayers. We arrived at the estimate by multiplying the number of requests closed as 1) or
2) above by the error rate of cases identified in our sample (5,589 * 3.7 percent error rate =
207 cases). A case was considered an “error” if a Disclosure office improperly withheld
information that was available and could have been released under the FOIA and/or the Privacy
Act.
Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 67 FOIA or Privacy Act requests that were not processed in a
    timely manner during the 12-month period October 1, 2006, through September 30, 2007
    (see page 9).
Methodology Used to Measure the Reported Benefit:
The attribute sample of 82 cases was randomly selected from the universe of
5,589 FOIA/Privacy Act requests closed nationally during the period October 1, 2006, through

1
  5 U.S.C.A. Section (§) 552 (West Supp. 2007).
2
  5 U.S.C. § 552a (2000).
3
  I.R.C. § 6103 (2004).
                                                                                        Page 16
                The Office of Disclosure Continued to Improve Compliance With
                         the Freedom of Information Act Requirements



September 20, 2007, as 1) a full or partial denial with either FOIA exemption (b)(3), in
conjunction with I.R.C. § 6103, and/or FOIA exemption (b)(7) cited as one of the reasons for
withholding information or 2) a request for which the IRS replied that responsive records did not
exist.
We identified only 1 (1.2 percent) of 82 cases reviewed as having a response issued after the due
date. We arrived at the estimate by multiplying the number of requests closed as 1) or 2) above
by the percentage of untimely responses identified in our sample (5,589 * 1.2 percent error rate =
67 cases).




                                                                                          Page 17
                     The Office of Disclosure Continued to Improve Compliance With
                              the Freedom of Information Act Requirements



                                                                                     Appendix V

                    Balanced Measures Review Process

The Balanced Measures Review Process is conducted bi-annually for compliance with
established standards of accuracy, completeness, and timeliness. The Balanced Measures
Review Team reviews a sample of FOIA/Privacy Act1 requests to collectively improve the
quality standards of the responses to those requests.
Accuracy Standard statistics for the last three reviews are as follows:
                                                                    January   July      January
                                                                     2007     2007       2008
    OVERALL RATING                                                    89%     91%        91%
    The request was properly controlled on the inventory system       94%     94%        96%
    The caseworker recognized that the request met or did not
    meet the FOIA/Privacy Act validity requirements
                                                                      95%     96%        98%
    The caseworker recognized that any authorization/Power of
    Attorney was valid
                                                                      96%     95%        87%

    Proper determination made on releasability                        84%     90%        91%
    The appropriate closing code was used                             89%     92%        94%
    All correspondence, including the response, was clearly and
    professionally written and technically accurate
                                                                      81%     83%        82%
Source: IRS Office of Disclosure.




1
    5 U.S.C.A. Section (§) 552 (West Supp. 2007) and U.S.C. § 552a (2000).
                                                                                           Page 18
                     The Office of Disclosure Continued to Improve Compliance With
                              the Freedom of Information Act Requirements



Completeness Standard statistics for the last three reviews are as follows:
                                                                      January            July            January
                                                                       2007              2007             2008
    OVERALL RATING                                                     95%               96%              96%
    The case file documents all case activities                        95%               94%              95%
    The response included the total number of pages responsive,
    denied in full, denied in part, and granted in full
                                                                       99%               97%              97%

    The response addressed all requested items                         97%               97%              99%
    Provided Notice 3932 when documents have been partially or
    fully withheld, or no responsive records located
                                                                       91%               96%              93%
    The requestor was kept apprised of the status of the request
    throughout the process
                                                                       88%               99%             100%

    Explained assertion or waiver of fees when needed                  86%               96%              87%
    Source: IRS Office of Disclosure.

Timeliness Standard statistics for the last three reviews are as follows:
                                                                      January            July            January
                                                                       2007              2007             2008
    OVERALL RATING                                                      91%              97%              96%
    Significant activity on the request began within a reasonable
    time period
                                                                        93%              94%              92%
    Days in process are appropriate based on the complexity of
    the request
                                                                        84%              97%              94%
    Time charged performing case activities was commensurate
    with case difficulty
                                                                        91%              98%              98%
    The response or Letter 15223 was sent within the statutory
    20-business-day time limit
                                                                        97%              99%              99%
    A response or additional extension letter was sent within the
    time stipulated in Letter 1522 or any additional extension
                                                                        98%              93%              98%
    Case notes were updated at least every 30 days, unless the
    case was closed within the initial 30-day time period
                                                                        88%              91%              97%
    Source: IRS Office of Disclosure.




2
  Information on an IRS Determination to Withhold Records Exempt From The Freedom of Information Act –
5 U.S.C. 552 (Notice 393).
3
  Letter to taxpayer requesting voluntary extension of time to locate and consider releasing requested IRS records
(Letter 1522).
                                                                                                            Page 19
